<html>
<title> - MISMANAGEMENT OF FUNDS AT THE NATIONAL WEATHER SERVICE AND THE IMPACT ON THE FUTURE OF WEATHER FORECASTING</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                       MISMANAGEMENT OF FUNDS AT 
                      THE NATIONAL WEATHER SERVICE 
                    AND THE IMPACT ON THE FUTURE OF 
                          WEATHER FORECASTING

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON INVESTIGATIONS AND
                               OVERSIGHT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                     WEDNESDAY, SEPTEMBER 12, 2012

                               __________

                           Serial No. 112-103

                               __________

 Printed for the use of the Committee on Science, Space, and Technology




                  U.S. GOVERNMENT PRINTING OFFICE
76-235                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1077607f507365636478757c603e737f7d3e">[email&#160;protected]</a>  


       Available via the World Wide Web: http://science.house.gov

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

              Subcommittee on Investigations and Oversight

                   HON. PAUL C. BROUN, Georgia, Chair
F. JAMES SENSENBRENNER, JR.,         PAUL D. TONKO, New York
    Wisconsin                        ZOE LOFGREN, California
SANDY ADAMS, Florida                 BRAD MILLER, North Carolina
RANDY HULTGREN, Illinois             JERRY McNERNEY, California
LARRY BUCSHON, Indiana                   
DAN BENISHEK, Michigan                   
VACANCY                                  
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas


                            C O N T E N T S

                     Wednesday, September 12, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sandy Adams, Vice-Chair, Subcommittee 
  on Investigations and Oversight, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    11
    Written Statement............................................    12

Statement by Representative Paul D. Tonko, Ranking Minority 
  Member, Subcommittee on Investigations and Oversight, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    13
    Written Statement............................................    15

                               Witnesses:

                                Panel I

Dr. Kathryn D. Sullivan, Assistant Secretary of Commerce for 
  Environmental Observation and Prediction and Deputy 
  Administrator for the National Oceanic and Atmospheric 
  Administration, U.S. Department of Commerce
    Oral Statement...............................................    17
    Written Statement............................................    20

Inspector General Todd J. Zinser, U.S. Department of Commerce, 
  Office of Inspector General
    Oral Statement...............................................    26
    Written Statement............................................    28


                                Panel II


Dr. William B. Gail, Chief Technology Officer, Global Weather 
  Corporation, Committee on the Assessment of the National 
  Weather Service's Modernization Program, National Research 
  Council of the National Academies
    Oral Statement...............................................    52
    Written Statement............................................    55

INVITED - Ms. Maureen Wylie, Chief, Resource and Operations 
  Management, National Oceanic and Atmospheric Administration, 
  U.S. Department of Commerce

Mr. Richard Hirn, General Counsel and Legislative Director, 
  National Weather Service Employees Organization
    Oral Statement...............................................    64
    Written Statement............................................    66

             Appendix I: Answers to Post-Hearing Questions

Dr. Kathryn D. Sullivan, Assistant Secretary of Commerce for 
  Environmental Observation and Prediction and Deputy 
  Administrator for the National Oceanic and Atmospheric 
  Administration, U.S. Department of Commerce....................    80

INVITED - Ms. Maureen Wylie, Chief, Resource and Operations 
  Management, National Oceanic and Atmospheric Administration, 
  U.S. Department of Commerce....................................    84

Inspector General Todd J. Zinser, U.S. Department of Commerce, 
  Office of Inspector General....................................    89

Dr. William B. Gail, Chief Technology Officer, Global Weather 
  Corporation, Committee on the Assessment of the National 
  Weather Service's Modernization Program, National Research 
  Council of the National Academies..............................    98

Mr. Richard Hirn, General Counsel and Legislative Director, 
  National Weather Service Employees Organization................   100

            Appendix II: Additional Material for the Record

Department of Commerce Acting Secretary, Ms. Rebecca Blank, May 
  24, 2012 memorandum submitted by Dr. Kathryn D. Sullivan.......   114

Under Secretary of Commerce for Oceans and Atmosphere, Dr. 
  Lubchenco, May 24, 2012 memorandum submitted by Dr. Kathryn D. 
  Sullivan.......................................................   126

Joint NOAA DOC investigative report's Executive Summary 
  (redacted).....................................................   132


                         MISMANAGEMENT OF FUNDS
                  AT THE NATIONAL WEATHER SERVICE AND
                      THE IMPACT ON THE FUTURE OF
                          WEATHER FORECASTING

                              ----------                              


                     WEDNESDAY, SEPTEMBER 12, 2012

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 3:33 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Sandy 
Adams [Chairwoman of the Subcommittee] presiding.

[GRAPHIC] [TIFF OMITTED] T6235.001

[GRAPHIC] [TIFF OMITTED] T6235.002

[GRAPHIC] [TIFF OMITTED] T6235.003

[GRAPHIC] [TIFF OMITTED] T6235.004

[GRAPHIC] [TIFF OMITTED] T6235.005

[GRAPHIC] [TIFF OMITTED] T6235.006

[GRAPHIC] [TIFF OMITTED] T6235.007

[GRAPHIC] [TIFF OMITTED] T6235.008

[GRAPHIC] [TIFF OMITTED] T6235.009

    Vice-Chairwoman Adams. The Subcommittee on Investigations 
and Oversight will come to order.
    Good afternoon. Welcome to today's hearing entitled 
``Mismanagement of Funds at the National Weather Service and 
the Impact on the Future of Weather Forecasting.'' Today's 
hearing will consist of two panels. You will find in the front 
of you packets containing written testimony, biographies, and 
truth-in-testimony disclosures for both of today's witness 
panels.
    I recognize myself for five minutes for an opening 
statement.
    As Vice Chair of the Investigations and Oversight 
Subcommittee, it is my pleasure to chair the hearing in Dr. 
Broun's place.
    We are here today to better understand what led to the 
mismanagement of funds at the National Weather Service. Our 
first panel will provide insight into how that mismanagement 
occurred, why there was insufficient oversight by department 
leaders, how the investigation was conducted, and the decisions 
and corrective actions that NOAA and the Department of Commerce 
will make going forward.
    Our second panel will provide context for how we got in 
this situation in the first place. We will hear from the 
National Weather Service Employees Organization about the 
stresses on labor funding and staffing, as well as the National 
Academies of Science about their recent report on how to plan, 
deploy, and oversee future improvements at the Weather Service, 
specifically the need to integrate advances in science and 
technology.
    Congress' appreciation of the value of the National Weather 
Service is evidenced by its financial commitment to it. Since 
2007, Congress has exceeded the Administration's request for 
the National Weather Service in all but two years, including 
2011 when this Congress had to move a CR six months into the 
fiscal year. So when Congress is informed that the Weather 
Service has been experiencing a budget shortfall for several 
years, we are understandably concerned. Keeping Congress in the 
dark while there is a storm brewing at the Agency is at best 
irresponsible, and at worst dishonest.
    We have also been informed that no ``NWS employee committed 
fraud or received personal financial gain through their 
actions.'' Yes, I am glad that no one stole money for personal 
gain, but make no mistake; Congress' trust--my trust--has been 
violated. Money designated for programs like the Advanced 
Weather Interactive Processing System and Weather Radio 
Improvement Projects, important investments in future 
capabilities, were used to pay for other near-term expenses. 
Why did the Agency decide to ``rob Peter to pay Paul,'' rather 
than appropriately prioritizing in the first place? Perhaps the 
clues lie in the May 24, 2012, decision memo issued by 
Administrator Lubchenco when she states, ``the NWS operated 
with an unacceptable lack of transparency relating to budgeting 
and without mechanisms for staff to air their concerns about 
budget formulation and execution within NWS, creating an 
environment of mistrust.''
    Then there is the question of NWS oversight, or lack 
thereof. The same memo also states that the investigative team 
that reviewed the financial mismanagement issues found 
``failure of management and oversight by NWS leadership.'' In 
addition, the team found significant problems with budget and 
financial controls at the National Weather Service and that 
department financial and management controls were ineffective 
at detecting or preventing this inappropriate reprogramming.''
    Yet, despite this admission, NOAA and the Department of 
Commerce refused to provide an important witness for today's 
hearing. NOAA's Chief of Resources, Operations, and Management 
(CROM), and former CFO during the events in question, would 
have been able to provide a historical context for the funding 
issues the Weather Service faced, a description of the 
impediments of transparency she experienced as CFO, and a 
detailed understanding of what NOAA needs to do going forward 
to fully understand what happened and how it can be prevented 
in the future. The Committee was willing to work with NOAA, 
even going as far as allowing the Agency to only submit one 
piece of written testimony, but NOAA still refused.
    While I appreciate Dr. Sullivan's willingness to appear 
before the Committee, denying the Committee's request to hear 
from the person who was the Agency's principal financial 
manager during a time in which millions of dollars of resources 
were secretly misallocated is simply unacceptable. This should 
be embarrassing for an administration that repeatedly declares 
itself ``the most transparent in history.''
    The Committee has also requested a number of documents from 
NOAA, some of which were originally requested months ago. 
Unfortunately, NOAA has not provided a number of resources that 
should be readily available. When an agency refuses to provide 
a witness, as well as requested documents, it makes it 
difficult for us to conduct a thorough oversight. It also makes 
it difficult for us not to ask: what are you hiding?
    The Committee will continue to track this issue as NOAA and 
the Department of Commerce attempt to identify the exact costs 
and impacts of these transfers, as well as how they plan to 
prevent it from happening in the future. Unfortunately, as the 
Commerce IG will mention in his testimony, allegations of 
similar behavior are still coming in, even as recently as last 
month.
    Now, as a former law enforcement officer, I understand that 
allegations have to be investigated thoroughly, but the simple 
fact that these complaints are still coming in tells me that 
NOAA and the Department still have a problem on their hands.
    I look forward to all our witness testimonies and thank 
them for appearing today.
    The Chair now recognizes Mr. Tonko for his opening 
statement.
    [The prepared statement of Mrs. Adams follows:]

     Prepared Statement of Subcommittee Vice-Chairwoman Sandy Adams

    Good afternoon and welcome to today's hearing. As Vice-Chair of the 
Investigations and Oversight Subcommittee, it is my pleasure to chair 
the hearing in Dr. Broun's place.
    We are here today to better understand what led to the 
mismanagement of funds at the National Weather Service. Our first panel 
will provide insight into how that mismanagement occurred, why there 
was insufficient oversight by department leaders, how the investigation 
was conducted and the decisions and corrective actions that NOAA and 
the Department of Commerce will make going forward.
    Our second panel will provide context for how we got in this 
situation in the first place. We will hear from the National Weather 
Service Employees Organization about the stresses on labor funding and 
staffing, as well as the National Academies of Science about their 
recent report on how to plan, deploy, and oversee future improvements 
at the Weather Service, specifically the need to integrate advances in 
science and technology.
    Congress' appreciation of the value of the National Weather Service 
is evidenced by its financial commitment to it. Since 2007, Congress 
has exceeded the Administration's request for the National Weather 
Service in all but two years, including 2011 when this Congress had to 
move a CR six months into the fiscal year. So when Congress is informed 
that the Weather Service has been experiencing a budget shortfall for 
several years, we are understandably concerned. Keeping Congress in the 
dark while there's a storm brewing at the agency is at best 
irresponsible, and at worst dishonest.
    We have also been informed that no ``NWS employee committed fraud 
or received personal financial gain through their actions.'' Yes, I'm 
glad that no one stole money for personal gain, but make no mistake, 
Congress' trust--my trust--has been violated. Money designated for 
programs like the Advanced Weather Interactive Processing System and 
Weather Radio Improvement Project, important investments in future 
capabilities, were used to pay for other near-term expenses. Why did 
the agency decide to `rob Peter to pay Paul,' rather than appropriately 
prioritizing in the first place? Perhaps the clue lies in the May 24, 
2012 decision memo issued by Administrator Lubchenco when she states:

      ``NThe NWS operated with an unacceptable lack of transparency 
relating to budgeting and without mechanisms for staff to air their 
concerns about budget formulation and execution within NWS, creating an 
environment of mistrust.''

    Then there's the question of NWS oversight, or lack thereof. The 
same memo also states that the Investigative Team that reviewed the 
financial mismanagement issues found:

      ``failure of management and oversight by NWS leadership. In 
addition, the Team found significant problems with budget and financial 
controls at the National Weather Service and that Departmental 
financial and management controls were ineffective at detecting or 
preventing this inappropriate reprogramming.''

    Yet, despite this admission, NOAA and the Department of Commerce 
refused to provide an important witness for today's hearing. NOAA's 
Chief of Resources, Operations, and Management (CROM), and former CFO 
during the events in question, would have been able to provide a 
historical context for the funding issues the Weather Service faced, a 
description of the impediments to transparency she experienced as CFO, 
and a detailed understanding of what NOAA needs to do going forward to 
fully understand what happened, and how it can be prevented in the 
future. The Committee was willing to work with NOAA, even going as far 
as allowing the agency to only submit one piece of written testimony, 
but NOAA still refused. While I appreciate Dr. Sullivan's willingness 
to appear before the Committee, denying the Committee's request to hear 
from the person who was the agency's principal financial manager during 
a time in which millions of dollars of resources were secretly 
misallocated is simply unacceptable. This should be embarrassing for an 
administration that repeatedly declares itself ``the most transparent 
in history.''
    The Committee has also requested a number of documents from NOAA--
some of which were originally requested months ago. Unfortunately, NOAA 
has not provided a number of resources that should be readily 
available. When an agency refuses to provide a witness as well as 
requested documents, it makes it difficult for us to conduct thorough 
oversight. It also makes it difficult for us not to ask: what are you 
hiding?
    The Committee will continue to track this issue as NOAA and the 
Department of Commerce attempt to identify the exact costs and impacts 
of these transfers, as well as how they plan to prevent it from 
happening in the future. Unfortunately, as the Commerce IG will mention 
in his testimony, allegations of similar behavior are still coming in--
even as recently as last month. Now, as a former law enforcement 
officer, I understand that allegations have to be investigated 
thoroughly, but the simple fact that these complaints are still coming 
in tells me that NOAA and the Department still have a problem on their 
hands.

    I look forward to all of our witnesses testimony, and thank them 
for appearing today.

    Mr. Tonko. Thank you, Madam Chair.
    I start with several statements of the obvious. The 
National Weather Service, or NWS, is a vital public safety 
organization and the public greatly values the organization and 
its work. Congress authorizes and appropriates funds to federal 
agencies for specific purposes and has been supportive of the 
NWS and its mission.
    In light of this, the financial misconduct at the National 
Weather Service is shocking. There are well established and 
widely understood processes for NWS to use if top management 
believes that funds must be reprogrammed. At their heart, 
these--those processes involve consulting with Congress. If you 
move money around without any accountability, as the former 
Chief Financial Officer at NWS did, you are violating the Anti-
Deficiency Act, a statute that clearly sets limits and 
penalties for spending money not authorized or appropriated by 
Congress. The power of the purse is enshrined for Congress in 
the Constitution and for any senior official to ignore the law 
and the Constitution is a deeply troubling event.
    There are important investigative questions about what 
happened and why in the NWS, but the committee majority has 
expressed its preference not to release the investigative 
report produced by NOAA management to the public. The Committee 
has not engaged in its own investigation to test the findings 
in that report to reach our own conclusions. This Subcommittee 
has much more work to do before any of these questions could be 
answered. Instead, much of this hearing will be about the path 
forward for NWS and NOAA in ensuring that a future CFO cannot 
engage in systematic financial deception. That is fine as far 
as it goes.
    I think the proposals put forward by the Agency make sense. 
However, I am not sure we agree with this hearing's focus or 
scope. While there is no question that wrongdoing occurred at 
NOAA, just as troubling to me is the failure by the Inspector 
General's office at the Department of Commerce to take 
aggressive steps to investigate this matter. The IG is the cop 
on the beat, so to speak, at federal agencies. Congress 
empowers IGs with broad authority to investigate the inner 
workings of their agency, provides funding for investigative 
staff, and has established whistleblower protections for 
federal employees to try to encourage a culture where 
accountability is rewarded.
    The IG offices are vital partners in Congress' oversight 
responsibility. In this instance, the cop appears to have been 
taking a break and the partnership failed. Inspector General 
Zinser has included in his testimony an accounting of the 
allegations his office received regarding financial 
irregularities at NWS and the disposition of those allegations. 
After receiving multiple tips, the IG's office recognized the 
potential problem. But the response to allegations of high-
level financial shenanigans seems to have been to send those 
allegations back to the Agency to ask them to check on their 
own misconduct. It seems counterintuitive to me that the best 
way to ferret out problems is to ask potential wrongdoers to 
investigate their own wrongdoing.
    Even the one preliminary investigation that was triggered 
by the hotline tips coming into the IG's office reveals 
something a little odd. That tip appears to have come in during 
October of 2010. However, Mr. Zinser was unaware that his 
office had received the allegations, that his staff had 
launched a preliminary investigation, or that his staff 
believed an Anti-Deficiency Act violation had occurred until 
November of 2011, one year later. By the time Mr. Zinser had 
seen his staff's memo, NOAA had already conducted its own 
preliminary investigation and had begun to take steps to remove 
the CFO from his post. And when it came time to launch a full 
investigation, the IG allowed the Agency to conduct its own 
investigation. The IG's office was limited to offering 
investigative advice and questions to the team that NOAA put 
together. These procedures bear no resemblance to the conduct 
of an independent investigative office.
    Since the scandal broke, the IG has instituted a new system 
where allegations are aggregated each week and forwarded to a 
senior level review team led by the IG himself. That is 
certainly a positive step but for five years his office did not 
do this. One has to wonder whether other anonymous tips were 
ignored or sent back to the perpetrators with the 
recommendation that they investigate themselves.
    Finally, the IG has a mandate to inform Congress in a 
timely fashion of important agency misconduct and 
mismanagement. Yet to my knowledge, the IG did not inform this 
committee or the Appropriations Committee that they had 
uncovered evidence of this apparent violation of law. This 
represents a real failing to follow the intent that the IG 
communicate with Congress about significant misconduct at their 
agency. There is no partnership where there is no 
communication. This is unacceptable.
    Madam Chair, I hope you agree that this committee deserves 
answers to our questions about what went wrong in the IG shop 
as we rely on that office to be our eyes and our ears for 
wrongdoing. Congress has a responsibility to the taxpayer to 
not allow--to not only allocate budgets to the agencies but to 
ensure that allocated funds are spent wisely and in accordance 
with the law. I am concerned that the Department of Commerce 
OIG has failed to carry out the mission of his office and I 
expect his full cooperation in helping us understand what they 
did, good and bad, and that he stand accountable for those 
actions.
    And with that, I yield back.
    [The prepared statement of Mr. Tonko follows:]

    Prepared Statement of Subcommittee Ranking Member Paul D. Tonko

    Thank you, Madame Chair.
    I start with several statements of the obvious: The National 
Weather Service (NWS) is a vital, public safety organization, and the 
public greatly values the organization and its work. Congress 
authorizes and appropriates funds to federal agencies for specific 
purposes and has been supportive of the NWS and its mission. In light 
of this, the financial misconduct at the National Weather Service is 
shocking.
    There are well established and widely understood processes for NWS 
to use if top management feels that funds must be reprogrammed. At 
their heart, those processes involve consulting with Congress. If you 
move money around without any accountability, as the former Chief 
Financial Officer (CFO) at NWS did, you are violating the Anti-
Deficiency Act-a statute that sets clear limits and penalties for 
spending money not authorized or appropriated by Congress. The power of 
the purse is enshrined for Congress in the Constitution and for any 
senior official to ignore the law and the Constitution is a deeply 
troubling event.
    We will not be able to delve deeply into the details of this 
incident at today's hearing or answer many outstanding questions. Why 
were these funds being moved without a reprogramming request? Which 
accounts received additional funding and which accounts were short-
changed? Why did whistleblowers have to complain repeatedly to the 
Agency and the Inspector General's Office before anyone noticed that 
something was amiss in the NWS budget?
    The Committee Majority have expressed their preference not to 
release the investigative report produced by NOAA management to the 
public. The Committee has not engaged in its own investigation to test 
the findings in that report to reach our own conclusions. This 
Subcommittee has much more work to do before any of these questions 
could be answered.
    Instead, much of this hearing will be about the path forward for 
NWS and NOAA in ensuring that a future CFO cannot engage in systematic 
financial deception. That is fine as far as it goes. I think the 
proposals put forward by the Agency make sense. However, I am not sure 
we agree with this hearing's focus or scope. While there is no question 
that wrong-doing occurred at NOAA, just as troubling to me is the 
failure by the Inspector General's office at the Department of Commerce 
to take aggressive steps to investigate this matter.
    The IG is the cop on the beat at federal agencies. Congress 
empowers IG's with broad authority to investigate the inner workings of 
their agency, provides funding for investigative staff, and has 
established whistleblower protections for Federal employees to try to 
encourage a culture where accountability is rewarded. The IG offices 
are vital partners in Congress's oversight responsibility. In this 
instance, the cop appears to have been taking a break, and the 
partnership failed.
    Inspector General Zinser has included in his testimony an 
accounting of the allegations his office received regarding financial 
irregularities at NWS and the disposition of those allegations. After 
receiving multiple tips, the IG's office recognized the potential 
problem. But, the response to allegations of high-level financial 
shenanigans seems to have been to send those allegations back to the 
agency to ask them to check on their own misconduct. It seems counter-
intuitive to me that the best way to ferret out problems is to ask a 
potential wrong-doer to investigate their own wrong-doing.
    Even the one preliminary investigation that was triggered by the 
hotline tips coming into the IG's office reveals something a little 
odd. That tip appears to have come in October of 2010. However, Mr. 
Zinser was unaware that his office had received the allegation, that 
his staff had launched a preliminary investigation, or that his staff 
believed an Anti-Deficiency Act violation had occurred until November 
of 2011--one year later.
    By the time Mr. Zinser had seen his staff's memo, NOAA had already 
conducted their own preliminary investigation and had begun to take 
steps to remove the CFO from his post. And when it came time to launch 
a full investigation, the IG allowed the agency to conduct its own 
investigation. The IG's office was limited to offering investigative 
advice and questions to the team that NOAA put together. These 
procedures bear no resemblance to the conduct of an independent 
investigative office.
    Since the scandal broke, the IG has instituted a new system where 
allegations are aggregated each week and forwarded to a senior level 
review team led by the IG himself. That is certainly a positive step.
    But for five years, his office did not do this and one has to 
wonder whether other anonymous tips were ignored or sent back to the 
perpetrators with a recommendation that they investigate themselves.
    Finally, the IG has a mandate to inform Congress in a timely 
fashion of important agency misconduct and mismanagement. Mr. Zinser 
has expressed to Committee staff that he believes there was sufficient 
evidence in the preliminary investigative memo done by his staff in 
November of 2011 that an Anti-Deficiency Act violation had occurred. 
Yet, to my knowledge the IG did not inform this Committee or the 
Appropriations Committee that they had uncovered evidence of this 
apparent violation of law.
    His explanation was that he believed that the Agency was going to 
inform Congress, but there was no follow up to confirm this. In fact, 
this Committee, which has black letter jurisdiction over the National 
Weather Service, did not learn of the situation until April of 2012. 
This represents a real failing to follow the intent that the IG 
communicate with Congress about significant misconduct at their agency. 
There is no partnership where there is no communication. This is 
unacceptable.
    I understand that this IG had a lot on his plate with oversight of 
the recovery act and politically-charged requests for investigations 
into topics such as climate science. Being the Inspector General at the 
Department of Commerce has been a notoriously difficult post. However, 
it is clear that in the five years that this IG has been on the job he 
did not put in place information and decision-making processes to 
guarantee that credible, important allegations receive high level 
attention and timely action. If the first complaint from Spring of 2010 
had been acted on quickly by the IG, as it should have been, we might 
have kept this situation from spinning so far out of control.
    Madame Chair, I hope you agree that this Committee deserves answers 
to our questions about what went wrong in the IG's shop, as we rely on 
that office to be our eyes and ears for wrong-doing. Congress has a 
responsibility to the taxpayer to not only allocate budgets to the 
agencies, but to ensure the allocated funds are spent wisely and in 
accordance with the law. I am concerned that the Department of Commerce 
IG has failed to carry out the mission of the office, and I expect his 
full cooperation in helping us understand what they did--good and bad--
and that he stand accountable for those actions.

    Vice-Chairwoman Adams. Thank you, Mr. Tonko.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    Now, I am going to introduce our first panel.
    At this time, I would like to introduce our first panel of 
witnesses. Our first witness is Dr. Kathryn Sullivan, the 
Assistant Secretary of Commerce for Environmental Observation 
and Prediction, and the Deputy Administrator for the National 
Oceanic and Atmospheric Administration at the United States 
Department of Commerce. Our second witness will be Inspector 
General Todd Zinser of the United States Department of Commerce 
Office of Inspector General.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which the Members of the Committee 
will have five minutes each to ask questions. Your written 
testimony will be included in the record of the hearing. It is 
the practice of the Subcommittee on Investigations and 
Oversight to receive testimony under oath. Do either of you 
have--or do any of you have any objection to taking an oath?
    Dr. Sullivan. No objection.
    Mr. Zinser. No objection.
    Vice-Chairwoman Adams. Let the record reflect that all 
witnesses were willing to take an oath.
    You may also be represented by counsel. Do any of you have 
counsel here with you today?
    Dr. Sullivan. I do not.
    Mr. Zinser. No.
    Vice-Chairwoman Adams. Let the record reflect none of the 
witnesses have had counsel.
    If you would now please stand and raise your right hand.
    Do you solemnly swear or affirm to tell the truth, the 
whole truth, nothing but the truth, so help you God?
    Dr. Sullivan. I do.
    Mr. Zinser. I do.
    Vice-Chairwoman Adams. Let the record reflect that all 
witnesses participating have taken the oath.
    Thank you.
    I now recognize our first witness, Dr. Kathryn Sullivan.

             TESTIMONY OF DR. KATHRYN D. SULLIVAN,

                ASSISTANT SECRETARY OF COMMERCE

          FOR ENVIRONMENTAL OBSERVATION AND PREDICTION

           AND DEPUTY ADMINISTRATOR FOR THE NATIONAL

            OCEANIC AND ATMOSPHERIC ADMINISTRATION,

                  U.S. DEPARTMENT OF COMMERCE

    Dr. Sullivan. Thank you, Vice Chair Adams, Ranking Member 
Tonko, Mr. McNerney, Members of the Committee. I want to start 
by thanking you for your support of NOAA and specifically for 
the National Weather Service throughout the years. I know you 
join me in admiring the men and women of the Weather Service 
who, day in and out, provide the accurate timely warnings and 
forecasts that protect lives and livelihoods across our Nation.
    Unfortunately, I am here today to testify on misconduct and 
budget formulation execution within the Service. Before going 
further, I do want to stress a vital point. While the conduct 
was wrong and breached the trust between NOAA and this 
Congress, at no point did it compromise performance of our core 
forecast and warning mission.
    We first learned of the alleged misconduct in late November 
2011. NOAA Administrator Dr. Jane Lubchenco notified then-
Deputy Secretary Dr. Blank and directed several immediate 
remedial actions. We put a government employee on 
administrative leave, we assigned the Chief Financial Officer 
from NOAA Fisheries to serve as the acting Weather Service CFO. 
Dr. Blank and Dr. Lubchenco launched an internal investigation 
led by myself as the senior NOAA official and a counterpart 
from the Commerce Department's CFO office. We also informed the 
Department of Commerce Inspector General of our intended 
investigation and he agreed that an internal inquiry was the 
proper course of action. Finally, we notified the House and 
Senate Committees on Appropriations of both the allegations and 
our investigation.
    As we reported upon conclusion of the investigation in May, 
we found that the Weather Service reprogrammed funds in fiscal 
years 2010 and 2011 without appropriate Congressional 
notification. The mechanisms used were complex and undetectable 
by existing financial controls. We also found a significant 
lack of transparency and ineffective oversight of budget 
execution within the Weather Service. Importantly, as noted, we 
found no evidence of fraud or personal financial gain by any 
employee.
    We found further that the Weather Service had not actually 
operated in the red or as a whole with overspending its funds 
in a given year to accomplish its core mission. It did become 
clear, however, that the Service did not have the right sums of 
money in the right accounts to support labor and operating 
costs.
    On May 25 of this year, Acting Secretary Blank and Dr. 
Lubchenco each issued a memorandum directing a set of 
corrective actions. These have been underway since that date. 
Dr. Lubchenco ordered 12 corrective actions all designed to 
strengthen financial controls and increase transparency within 
the Service, as well as to ensure no similar issues exist 
elsewhere in the Agency. We directed changes in the Weather 
Service supervisory structure to strengthen oversight of the 
CFO by both the Weather Service Deputy AA and the NOAA CFO. We 
are creating a well documented and transparent process to 
ensure that Weather Service budget formulation and execution 
are properly aligned and within the limits of appropriated 
funds. We strengthened the NOAA CFO's supervision over summary 
level transfers, one of the mechanisms used to executive the 
expense transfers inappropriately in this case. Lastly, we have 
awarded a contract to conduct an independent financial review 
and analysis of the National Weather Service books going back 
to fiscal year 2006.
    In May, we worked with appropriators of both chambers to 
reprogram $36 million, the sum needed to sustain current levels 
of performance and our core forecast warning services and avert 
the necessity of employee furloughs. This involved moving funds 
out of research and spare parts inventories and delaying some 
programs that support improvements for future years. The cuts 
were not easy but few options remained open to us that late in 
the fiscal year. The exceptional performance of the Weather 
Service during Hurricane Isaac confirms that these have not 
negatively affected our current warnings and forecast 
performance.
    We are fully cognizant that it is imperative and incumbent 
upon us to restore sound financial management in the National 
Weather Service. We are committed to doing that and to keeping 
this committee informed of our progress. But even amid this 
immediate challenge, we must be looking toward the future and 
taking actions that ensure the long-term vitality and 
effectiveness of the National Weather Service. The National 
Academy study that the Congress requested is already guiding 
our thinking in this regard. We share the Academy's sense that 
the Service must, ``evolve its role and how it operates, making 
it more agile and efficient,'' and we look forward to the 
follow-on operations study directed by the CJS FY12 conference 
report due in April 2013.
    We hope that in the coming months our dialogue with the 
Congress, our employees, and our stakeholders can focus on the 
future, on how we all can work together to create that more 
agile and efficient organization, a National Weather Service 
for the 21st century that is, as the Academy says, second to 
none.
    Thank you again for this opportunity to testify on this 
very important matter. I welcome your questions.
    [The prepared statement of Dr. Sullivan follows:]

    [GRAPHIC] [TIFF OMITTED] T6235.010
    
    [GRAPHIC] [TIFF OMITTED] T6235.011
    
    [GRAPHIC] [TIFF OMITTED] T6235.012
    
    [GRAPHIC] [TIFF OMITTED] T6235.013
    
    [GRAPHIC] [TIFF OMITTED] T6235.014
    
    [GRAPHIC] [TIFF OMITTED] T6235.015
    
    Vice-Chairwoman Adams. Thank you. And I now recognize our 
second witness for the panel, Inspector General Todd Zinser, 
for five minutes.

         TESTIMONY OF INSPECTOR GENERAL TODD J. ZINSER,

                  U.S. DEPARTMENT OF COMMERCE,

                  OFFICE OF INSPECTOR GENERAL

    Mr. Zinser. Madam Chair, Ranking Member Tonko, Members of 
the Subcommittee, good afternoon.
    The invitation from Chairman Broun asked us to specifically 
address four areas. One, identify how and when we received the 
allegations relating to financial misconduct at the National 
Weather Service. During the period June 2010 to August 2012, we 
received numerous complaints through our hotline and from GAO 
via their FraudNet. Eight concerned allegations of improper 
reprogramming, and four concerned allegations about a former 
employee of the National Weather Service Office of Chief 
Financial Officer, who was brought back as a contractor. That 
person is now a former contractor, thanks to the National 
Weather Service staff who contacted our hotline and Dr. 
Sullivan's prompt management action.
    Two, explain our role in and provide a preliminary analysis 
of the joint NOAA departmental investigative report following 
NOAA's internal inquiry. I first became aware of allegations of 
improper reprogramming at the National Weather Service in 
November 2011, when the head of our audit staff sent a 
memorandum to the National Weather Service Chief Financial 
Officer and several other NOAA and Departmental officials which 
basically said that we thought they had a $10 million improper 
reprogramming issue concerning AWIPS funding and that they 
should get an opinion from the Department's Office of General 
Counsel. In our conversations with the National Weather Service 
CFO's office during our review, they insisted that they had not 
engaged in improper reprogramming. We disagreed and said they 
needed to get the lawyers involved. A copy of our memorandum is 
attached to our written statement.
    At about the same time, in a November 2011 conversation 
with the former NOAA Deputy Undersecretary, I learned that NOAA 
was finishing up a review of similar reprogramming allegations 
that had been referred to them by my OIG hotline staff. That 
review reached the same conclusion that we did that there was 
improper reprogramming occurring. The issue was elevated very 
quickly to the Deputy Secretary and Undersecretary. There was 
interest in additional fact-finding, especially about the 
extent of executive responsibility and knowing the extent of 
the reprogramming, so initially NOAA, then the Department and 
NOAA jointly, undertook further fact-finding between November 
2011 and May 2012, when the NOAA review report was issued and 
corrective actions ordered.
    Three, explain the rationale for conducting a sufficiency 
review of the investigation rather than an independent OIG 
investigation. Generally, when we refer a hotline matter to the 
Department or one of its Gureaus for resolution, we ask for an 
answer. Once we receive the answer, we then conduct what we 
call a sufficiency review. We do not have the resources to look 
into every allegation we receive through the hotline, so this 
is a common method used by IG offices across the government to 
leverage our resources with those of the agencies to resolve 
management and administrative matters.
    In this case, it was my view that the Department and NOAA 
were in the best position to carry out the follow-up fact-
finding for a few reasons. At the end of the day, the 
determination as to whether the reprogramming actions were 
proper or improper was going to be made by the Department and 
OMB and the basic facts were already known. We had already 
reported our observations in our November 2011 memorandum and 
it was now up to the Department and NOAA to address these 
observations with their budget, accounting, and legal staffs. 
That put my office in a better position to evaluate the 
Department and NOAA's actions and response. We are in the 
process of doing that right now.
    Four, discuss what follow-up activity OIG has planned. Both 
our audit and investigative staff are engaged in follow-up 
work. These activities are discussed in further detail in my 
written statement. Among other things, our audit staff is 
tracking progress on the 20 or so corrective actions that were 
directed by Acting Secretary Blank and Undersecretary 
Lubchenco. Our audit staff is also going to try to get a better 
handle on the reported structural deficit and budget shortfall 
referenced in the May 2012 report that is said to underlie 
improper programming. We would also like to get a better 
understanding of the impact, if any, of the reprogramming 
actions on the National Weather Service programs, especially 
AWIPS.
    Our investigators are conducting follow-up interviews about 
how far back this may go and which other officials may have 
been aware of the structural deficit, the shortfall, and the 
reprogramming activities. The investigative work is also in 
response to hotline complaints received after the May 2012 
internal report was issued. We will keep both Congress and the 
Department informed of our work.
    This concludes my statement, Madam Chair. I would be happy 
to answer questions that you or other Members of the 
Subcommittee may have.
    [The prepared statement of Mr. Zinser follows:]

    [GRAPHIC] [TIFF OMITTED] T6235.017
    
    [GRAPHIC] [TIFF OMITTED] T6235.018
    
    [GRAPHIC] [TIFF OMITTED] T6235.019
    
    [GRAPHIC] [TIFF OMITTED] T6235.020
    
    [GRAPHIC] [TIFF OMITTED] T6235.021
    
    [GRAPHIC] [TIFF OMITTED] T6235.022
    
    [GRAPHIC] [TIFF OMITTED] T6235.023
    
    [GRAPHIC] [TIFF OMITTED] T6235.024
    
    [GRAPHIC] [TIFF OMITTED] T6235.025
    
    [GRAPHIC] [TIFF OMITTED] T6235.026
    
    [GRAPHIC] [TIFF OMITTED] T6235.027
    
    [GRAPHIC] [TIFF OMITTED] T6235.028
    
    [GRAPHIC] [TIFF OMITTED] T6235.029
    
    Vice-Chairwoman Adams. I thank the panel for their 
testimony. Reminding Members that committee rules limit 
questioning to five minutes, the Chair will at this point open 
the round of questioning.
    The Chair recognizes herself for five minutes.
    Dr. Sullivan, you state in your testimony that you did not 
find evidence that NWS officials improper action put life or 
property at risk or jeopardized the delivery of timely or 
reliable weather forecast and warnings. You also state that as 
part of the fiscal year 2012 reprogramming, NOAA will take 
funds out of NWS accounts that will lead to postponing 
procurements of spare parts and deferring enhancements to 
weather systems, among others.
    How can you be sure that the future of NWS operations won't 
be impacted by these transfers? We have basically been eating 
our seed core by taking money from programs like AWIPS and 
WRIP. What does this mean to the future of NWS' ability to 
deliver timely and reliable weather forecasting warnings? And 
will the fiscal year 2013 budget request be modified to reflect 
the current shortfall or can we expect to revisit a scenario 
next year again where NWS either runs out of money or has to 
come back to Congress with more reprogramming requests?
    Dr. Sullivan. Thank you for your question. We are--we share 
your concern that we are taking from programs that underwrite 
the long-term future of the Weather Service to balance this out 
and make sure we support the current forecast. Across 
government, senior managers are wrestling with very much the 
same challenge, short-term urgent matters, longer-term 
investments under the tight fiscal constraints that we are all 
facing. We don't have a simple silver-bullet answer, Madam Vice 
Chair. I would say in making the specific choices that we did 
make both for the fiscal year 2012 reprogramming and for the 
adjustments that we have proposed to fiscal year 2013, we 
looked carefully at performance metrics in our key forecast 
warning areas. We looked at rates of progress of those 
procurement programs. We made difficult, painful choices to 
slow rate of progress towards the future--not halt it but slow 
it--and be sure that we sustain the performance that is so 
vital every day to the American public.
    Vice-Chairwoman Adams. So are you saying that you don't 
believe that this will impact AWIPS or WRIP?
    Dr. Sullivan. We have restructured the Weather Radio 
Improvement Program only partly due to the reprogramming 
actions I have testified about today. There was separately and 
independent from that a very significant performance issue with 
the contractor that first was awarded that worked some years 
ago. And thirdly, the development of AWIPS as it came along 
through the years and technology advanced showed the 
opportunity to accomplish the WRIP upgrade through the AWIPS 
system itself rather than by a separate stand-alone proprietary 
approach. So we have modified the approach to that program. The 
capability will come into the Service.
    On AWIPS a couple of things are happening simultaneously. 
We are fielding an advanced AWIPS system called AWIPS II. We 
have worked carefully to be sure that the adjustments that we 
have made in our budget do not affect the phased deployment of 
AWIPS II. Above and beyond that, there are subsequent 
downstream enhancements that we have been working to prepare 
and software further algorithms. Those enhancements are what we 
have had to slow to make these adjustments.
    Vice-Chairwoman Adams. Thank you. You know, I just--I am--
why--Mr. Zinser, why didn't the IG's office assume 
responsibility for the investigation of NWS given how high up 
the allegations go? Wouldn't it have made more sense to handle 
it at the IG level rather than provide a supporting role to the 
Bureau in the Department's investigation? I mean I think that 
is--you touched on it in your testimony. I would like a little 
bit more as to why.
    Mr. Zinser. Yes, Madam Chair. The fact that the initial 
complaint had been reviewed by our audit staff and by an 
internal team at NOAA that resulted in their November 2011 
report, taking those two things together established the basic 
facts. We both concluded that there was improper reprogramming 
going on. The additional fact-finding that the Acting Secretary 
was interested in dealt with whether proper accountability had 
been identified among the executive ranks. My concern was that, 
at the end of the day, a determination of whether the 
reprogramming was improper, whether it constituted an Anti-
deficiency Act violation, that was all going to be determined 
by the Department's Office of General Counsel and OMB.
    And at the same time, what I told the Acting Secretary was 
that I thought that they could go ahead with the additional 
fact-finding, but I had two concerns. One concern was that, if 
there was any evidence that there was money going to somebody 
personally, that we would step in. The second concern was that 
if the people whom they had to interview were of such high rank 
that the interviewing team felt uncomfortable interviewing 
them, that we would do that. And, in fact, we have done that 
and we continue to interview people and re-interview people 
whom the initial fact-finding team have already talked to. That 
is going to be part of our follow-up review.
    So what I told the staff when we briefed them--your staff--
was that there is a lot of work left to be done, but right now, 
we have a good set of documents NOAA pulled together and a lot 
of statements that have been made by various witnesses and we 
are in a much better position to do the follow-up work that I 
think needs to be done.
    Vice-Chairwoman Adams. Thank you. My time is expired.
    And I now recognize Mr. Tonko for five minutes.
    Mr. Tonko. Thank you, Madam Chair.
    Mr. Zinser, I think you have taken good steps to fix the 
way your office handles hotline complaints, but would you agree 
or disagree that the system--the old system was inadequate?
    Mr. Zinser. I definitely agree and I think there are other 
factors involved, but there were some process improvements that 
were required that we put in place, yes, sir.
    Mr. Tonko. And to that original system for handling 
complaints, that basically led your office to ignore important 
warnings about the Weather Service, and I worry about what else 
you may have missed. Have you done a risk assessment of what 
was missed perhaps?
    Mr. Zinser. Yes, sir. While I am not in agreement that we 
ignored the National Weather Service, I don't think we----
    Mr. Tonko. Well, you received whistleblower complaints----
    Mr. Zinser. Yes.
    Mr. Tonko. --and nothing happened of that. Why would there 
not have been some sort of immediate response?
    Mr. Zinser. Well, the person who was managing my hotline 
operation at the time no longer works for me so I can't go back 
and ask him. And other factors that existed at the time--I 
don't want to sound like I am making excuses--but that was a 
period of time when the decennial census was operating our 
hotline was absolutely flooded, sir. But in any event, the risk 
assessment that we did do--what happened with the first GAO 
FraudNet, what that staff member did was what we call ``zero-
filed'' it. They catalogued it; and set it aside. So zero-files 
are things that you are not going to take action on right away. 
You are going to file it and if additional complaints come in 
on the same subject, you have some history of the complaint. I 
would not have handled it that way, but my staff did.
    Now, we went back and looked at all the other complaints 
that we zero-filed, and what I was told is that, out of 500 or 
so, there were maybe 10 that weren't very well documented. I 
don't know that we would have acted any differently, but we 
really couldn't tell the rationale for why they were zero-
filed. But we have done a risk assessment and we have put in 
place a number of process improvements, and we have provided 
training to the Department. We have issued a guide on how to 
conduct these types of administrative reviews. We have also 
established a community of interest in the Department of 
anybody who works on hotlines. I am reporting on these on a 
quarterly basis to the Acting Secretary as part of our balanced 
scorecard. So we have strengthened, I feel, our whole process.
    Mr. Tonko. So as you evaluate what might have been missed, 
can I ask that we receive a copy of the evaluation of what was 
missed?
    Mr. Zinser. Sure. Absolutely.
    Mr. Tonko. And Dr. Sullivan, we hear of the failure of this 
system--of an IG system regardless of the human behavior or 
failure, it took that to draw attention to what should be a 
very obvious situation, a whistleblower or a team of 
whistleblowers doing their thing. Is it credible that no one at 
NWS or NOAA knew of financial misconduct? It seems that there 
were numerous complaints. And can you convince me that the CFO 
at NWS was really the only senior person who knew what was 
going on? I mean it is a major move of money. Am I to believe 
that it was just whistleblowers and then a failed IG response 
that we required when in fact the management of that situation 
should have been on top of it?
    Dr. Sullivan. I would say, Mr. Tonko, our inquiry team, 
based on the witness statements that we took, really did find a 
very--an unfortunate and quite ineffective management climate 
at the senior levels of the Weather Service.
    Mr. Tonko. I am told this goes back to 2006?
    Dr. Sullivan. We have heard that anecdotally. Within the 
scope of our investigation, we couldn't verify that. That is 
why we have commissioned an independent evaluation by Grant 
Thornton to look back to fiscal year 2006 and try to confirm 
that. There certainly were lots of what the Assistant 
Administrator of the Weather Service called ``griping,'' what 
he says in his statement he construed as ``normal carping'' of 
program managers who disliked the pressures that their budgets 
were on.
    Again, if you look at the details of the report we found a 
budget formulation process, you know, that fails to bring 
forward in crisp and actionable fashion questions that clearly 
needed to be addressed more squarely. If we don't have 
sufficient funding to advance a program at a certain rate, what 
do we do about that? Meetings were held, PowerPoint charts were 
given, but in the instant cited--and I think it was 2010 in our 
report--with all of that chatter and chitchat within the 
Service itself, leadership at the Weather Service level did not 
bring together, force together, crystallize specific issues, 
specific risks, specific responses. They did not do that within 
the Weather Service and certainly did not bring any such 
justification or risk or warning forward to NOAA leadership.
    That is the only instance of such conduct I can speak to 
personally. It happened--we uncovered it and looked into it 
during our investigation. There may have been others previously 
before I arrived on station. I can't speak to those. But the 
one we did look at in our inquiry certainly says to me 
questions that needed answers, solid answers, well developed 
budget justification and risk answers were not being handled 
that way at the time within the Weather Service and were 
certainly not coming forward.
    Mr. Tonko. Thank you.
    Vice-Chairwoman Adams. Thank you.
    And I now recognize Mr. Hultgren for five minutes.
    Mr. Hultgren. Thank you, Madam Chair.
    Thank you for both being here. I apologize for being a 
little bit late, had a couple other meetings going on at the 
same time but I do appreciate your testimony.
    I do want to ask a couple questions. I am not sure if this 
was covered in your oral testimony or not but wanted just to 
clarify it.
    First of all, Dr. Sullivan, I wondered just on time line 
when we could expect the Department to conclude its review to 
determine if Anti-Deficiency Act violations had occurred?
    Dr. Sullivan. Thank you, Mr. Hultgren.
    It is my understanding that the preliminary determination 
has been concluded and the matter is in the process of being 
referred forward to appropriate--through appropriate channels 
to OMB and--sorry--Justice I presume. I confess to not being 
completely clear on the procedural details for that process and 
that report and write-up should go forward perhaps as soon as 
the end of this week.
    Mr. Hultgren. Okay. So you think we would start seeing 
those, then, in the next couple of weeks? Is that your thought 
or----
    Dr. Sullivan. Again, I am not conversant with the 
procedural details that move these matters from a preliminary 
determination all the way through and bring them to the 
Congress' attention. But my understanding is there is a 
preliminary determination. I believe it is an affirmative one 
and that the package is moving forward.
    Mr. Hultgren. Okay. Also, Dr. Sullivan, there are several 
deadlines for action identified in the NOAA and DOC decision 
memos and then we had--many of them had deadlines that have 
already passed. How many of those action items were completed 
by the listed deadline and what are they?
    Dr. Sullivan. The far majority of them, Mr. Hultgren--and I 
can give you a detailed listing of those--I am sorry I can't 
recount them to you one by one. You appreciate there is quite a 
number. We have been holding biweekly meetings on the progress 
of those actions at very senior levels. Both the Undersecretary 
and the acting Secretary were briefed at the 90-day point on 
progress to date. There were many of the very early actions 
confirmed to be completed. There were none that I recall that 
were not underway or at an expected point of progress by that 
90-day point with I think one exception whereas the team 
investigated the actions needed to fulfill the order that was 
given. They found the scope was more complex than realized and 
requested permission to delay one milestone. But I would be 
happy to get you that full accounting.
    Mr. Hultgren. If you would, that would be great. If you can 
get that to our office and maybe also the Committee, that would 
be terrific.
    Dr. Sullivan. We will be glad to do that.
    Mr. Hultgren. Thank you.
    Mr. Zinser, just a couple questions for you. When do you 
anticipate completing your response to the investigative 
report?
    Mr. Zinser. Sir, we really have just begun because part of 
that is to go and track the progress of the sufficiency of the 
corrective actions that have been directed and that NOAA and 
the Department are putting in place. We have reviewed the 
reprogramming request, for example, and spoken to the 
appropriators about that and the request was subsequently 
approved. And we have also received one report that Ernst & 
Young performed for NOAA and the rest of the Department on SLTs 
about how the controls are or are not in place for the SLT 
mechanisms that are used in the accounting of--for the budget. 
Beyond that, most of our work is still underway and it is hard 
to determine, you know, exactly how long we will be. Plus, we 
are doing some follow-up interviews, and as you probably are 
aware, you really never know where those are going to lead you.
    Mr. Hultgren. With your work, do you plan on issuing some 
sort of report or other documentation of the work that reflects 
what you are doing and the investigation that is ongoing now?
    Mr. Zinser. Yes, sir. We have opened a formal audit, made 
the announcement, and will issue an audit report upon its 
completion. But during the course of that, we would be happy to 
come up and brief the Subcommittee and keep you informed on the 
progress.
    Mr. Hultgren. Okay. And obviously, we would get copies of 
the report when that is completed, is that right?
    Mr. Zinser. Absolutely.
    Mr. Hultgren. Good. Also, Mr. Zimmer--Zinser, I am sorry--
in your testimony you identify a series of complaints that 
began January 11 of 2012 relating to an NWS employee who 
allegedly promised funding for programs in return for hiring 
the employee's relative. Dr. Sullivan's testimony states that 
the investigative team found no evidence that the NWS employees 
committed fraud or received personal gain through their action. 
I wonder based on your preliminary review of the allegations, 
do you agree with Dr. Sullivan's statement or do you have any 
position on that?
    Mr. Zinser. Yes, I think the review that the Department and 
NOAA did focused strictly on the reprogramming issue. In that 
case, if you put aside the fact that a willful violation of the 
Anti-deficiency Act could constitute a criminal act and be 
considered a fraud, you put that aside for now, the issues that 
we reported and a series of hotline complaints dealt with are a 
conduct issue and a contracting issue inside the office of the 
Chief Financial Officer at the National Weather Service. They 
are not directly about the reprogramming.
    Mr. Hultgren. Okay. I think that sort of answers my 
question. But so you don't have any direct statement of whether 
you agree with Dr. Sullivan's statement on that or not, that 
there is no evidence of personal gain received by these 
employees?
    Mr. Zinser. I think that the issue involving the former 
employee and contractor, I think he did improperly obtain 
personal gain but not through the reprogramming effort. We 
didn't find any evidence in the reprogramming activities that 
money was going into anybody's pocket, for example.
    Mr. Hultgren. Okay. Thank you very much.
    I yield back.
    Vice-Chairwoman Adams. Thank you.
    I now recognize Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chair.
    Dr. Sullivan, when did the last summary level transfer take 
place?
    Dr. Sullivan. Mr. McNerney, summary level transfers are 
commonplace, financial management mechanisms. They are 
designed--their intent is to allow accounting officials to 
correct codes improperly entered inadvertently, really make 
technical level corrections. So they are a common and commonly 
used tool both within NOAA and across the Department widely. 
They--I don't know the precise answer but I suspect it is 
probably within some recent days for legitimate accounting code 
corrections.
    Mr. McNerney. Well, how about improper programming? When 
was the last incident where improper programming took place?
    Dr. Sullivan. I don't have specific evidence that allows me 
to answer that, Mr. McNerney. We put new controls and oversight 
measures into place effective August 1 that significantly 
change both the----
    Mr. McNerney. August 1 of this year?
    Dr. Sullivan. August 1 of this year in response to the 
corrective actions directed by Dr. Lubchenco.
    Mr. Zinser. Sir, if I may?
    Mr. McNerney. Yes.
    Mr. Zinser. The nature of these summary level transfers and 
the way they were carried out was such that NOAA and the 
Department could not figure out which summary level transfers 
were appropriate and which ones were not appropriate. That is 
why it took them five months trying to nail down the 
transactions. There was no documentation on the transfers that 
were made and the notations that were made in connection with 
those transfers were so cryptic that you didn't really 
understand the purpose of the transfers. And when Ernst & Young 
came in and looked at it, their first finding was there that 
there were no controls over this process.
    Mr. McNerney. So, Dr. Sullivan, has the improper 
programming had any impact whatsoever either way on the polar 
satellite procurements?
    Dr. Sullivan. This reprogramming that we investigated 
within the National Weather Service I am very confident has not 
affected that. A different organization with NOAA executes 
those programs.
    Mr. McNerney. Okay. I mean you must be sensitive to how 
this hurts the case for asking for those kinds of program 
funds?
    Dr. Sullivan. We are very sensitive to the concerns of the 
Committee, the Subcommittee, and the Congress at large and we 
share them, and that is why a number of Dr. Lubchenco's 
corrective actions, as well as the acting Secretary's actions 
charged our teams with looking beyond the horizon of this 
investigation and digging in to confirm that anywhere in the 
Department we did be sure--we did change controls, add 
controls, strengthen them to be sure that we had none of this 
happening and could have higher confidence that it could not 
happen across our other program areas.
    Mr. McNerney. Okay, Mr. Zinser, did I hear you correctly 
that you first heard on November of 2011 about the improper 
reprogramming?
    Mr. Zinser. Yes, sir.
    Mr. McNerney. Well, that is a little bit contradictory of 
something else you said, that you allowed NOAA to conduct its 
own investigations because those departments were the most 
capable and the most ready to do those investigations, so that 
happened before November of 2011.
    Mr. Zinser. Yes, sir. There are actually two efforts by 
NOAA and the Department. The first one NOAA did as a result of 
my staff referring a matter to them. I wasn't briefed on that 
until November of 2011 either. It was after that, the follow-up 
review that was done by the Department and NOAA between 
November of 2011 and May 2012. That is when I went through a 
decision process with the Acting Secretary about how best to 
handle that follow-on investigation or fact-finding activity.
    Mr. McNerney. So you had no say, then, personally in the 
decision to send those investigations back to the NOAA?
    Mr. Zinser. Well, our process wasn't set up at that point 
for me to really get involved to that level of detail with the 
hotline program.
    Mr. McNerney. You know, I am--there are some 
inconsistencies still. By November of 2011, it was clear that 
some misconduct had occurred by some very senior National 
Weather Service officials and that your own staff made it 
apparent that those were in violation of the Anti-deficiency 
Act. That is an Act we take pretty seriously here in the 
Congress and yet those allegations were sent back to the 
Department even though they involved possible criminal 
behavior. What does it take for the IG to declare that an 
investigation has to take place within your department?
    Mr. Zinser. Yeah, let me clarify that, sir. When we have a 
finding and we make a recommendation, the Department does not 
have to pay attention to me. And so when we tell them we think 
there is an Anti-Deficiency Act violation----
    Mr. McNerney. This is the Department?
    Mr. Zinser. The Department of Commerce, or any department 
with an OIG, our recommendations do not have to be accepted or 
followed by the Department. And in the case of an Anti-
deficiency Act violation, the Department itself and OMB makes 
the determination whether there was a violation or not. I can 
make my observation and I can make my recommendation, but until 
the Department weighs in and agrees, that is when action is 
taken, not just based on the IG's views.
    Mr. McNerney. Well, my time is expired.
    Vice-Chairwoman Adams. Thank you.
    And I believe we have enough time for a second round, so 
maybe some follow-up if you would like on that.
    I now recognize myself--the Chair recognizes herself for 
five minutes.
    Dr. Sullivan, as part of your testimony, you explained that 
of the 36 million fiscal year 2012 reprogramming request, 29.9 
million will be from NWS programs. Protecting lives and 
property is central to NOAA's mission and NWS forecasting and 
warning is the primary line of office with that responsibility. 
Instead of further draining the resources of NWS, why doesn't 
the reprogramming request come from other non-NWS NOAA funds?
    Dr. Sullivan. Thank you, Madam Chair.
    We made a few judgments in working on the reprogramming. 
One was that the service in which we had had the failings 
should be the primary horizon in which we look to balance 
properly, for that reason and also to be sure that we really 
understood what sums needed to be where in the Weather Service 
itself. Secondly, although the National Weather Service is a 
very frontline and top priority mission for NOAA, we are 
charged with quite an array of missions that are of great 
importance to the country. I don't want to get into some debate 
about which of our children we love the most. It is by design 
an integrated ocean and atmosphere agency with a range of 
science service and stewardship responsibilities that touch 
Americans every single day. There is importance in our view in 
all of them. We attempted to make a balanced decision and 
prevent further degradation in mission areas that have 
suffered, frankly, greater budget erosion in recent years than 
the Weather Service itself has.
    Vice-Chairwoman Adams. By the reprogramming?
    Dr. Sullivan. No, by----
    Vice-Chairwoman Adams. Okay. So again you are taking and 
reprogramming funds and you are doing it from NWS?
    Dr. Sullivan. That is correct.
    Vice-Chairwoman Adams. And so I would like to know what, if 
any, other programs could have sustained such reductions?
    Dr. Sullivan. That sum--that is a very large sum to take 
across other NOAA program areas. And again our first driver and 
view was that it was right to solve this problem within the 
Service where the misconduct issues had occurred. That late in 
the year, that was not altogether possible to do due to the 
expenditure rate and execution pace of the Weather Service 
itself and something on the order--if I recall the sum 
correctly--of $4.2 million we did turn outside of the Weather 
Service and take those cuts there.
    Vice-Chairwoman Adams. Okay. And so when I asked you 
earlier about the reductions and everything else, and then my 
colleague asked you about the polar systems and stuff, so you 
are saying you believe that you have enough money to do what 
you need to do, even with the reprogramming? And a simple yes 
or no will----
    Dr. Sullivan. Within the National Weather Service?
    Vice-Chairwoman Adams. Within NOAA, yes or no? Because you 
are going to reprogram so do you believe you have enough money?
    Dr. Sullivan. We can operate at that level, yes, ma'am. I 
don't think any of us feel we are living fully up to the 
missions that the American people expect of us.
    Vice-Chairwoman Adams. So in saying that, I think that it 
is very concerning because we have allocated and appropriated 
funding and it is taxpayers' money. And if you didn't need it 
in the first place and you can still do your mission, it is 
kind of concerning, okay?
    The other question I have, in the fall of 2011, the Weather 
Service conducted an internal review of the allegations it 
received from the IG. The preliminary findings of that review 
led to NOAA placing an NWS employee on administrative leave and 
prompted a NOAA-Commerce senior level review that began in 
December of 2011 and did not conclude until May of 2012. During 
that time, NOAA created a new position, the Chief of Resources 
and Operations Management (CROM) to oversee the enterprise 
functions such as finance, information technology, and 
administration. This position was filled by the then-current 
NOAA CFO before the conclusion of an investigation into the 
management of NOAA finances. How was NOAA sure that this--that 
it was not giving a promotion to someone who had turned a blind 
eye towards or that was naively oblivious to improper financial 
activity when it had not concluded its report at the time that 
they made this appointment?
    Dr. Sullivan. By the time that appointment was made, Madam 
Chair, we had taken--we judged sufficient witness statements to 
offer review, that the misconduct was substantially confined--
totally confined within the Weather Service itself. As I said 
earlier, we had indications from a number of the witnesses and 
events that we reviewed that the Service was not bringing 
forward up the NOAA budget chain the kinds of indications--
evidence, data----
    Vice-Chairwoman Adams. But isn't it the responsibility of 
the CFO's office for establishing and ensuring the adequacy of 
financial internal controls and this person was there and then 
was promoted during your investigation? Is that not correct?
    Dr. Sullivan. That is the timing, yes, ma'am.
    Vice-Chairwoman Adams. Thank you. My time is expired.
    I now recognize Mr. Tonko.
    Mr. Tonko. Thank you, Madam Chair.
    Dr. Sullivan, I know that you have taken the situation at 
NWS very seriously. At the same time, I have to mention how 
outraged I am and shocked to learn that with relative ease 
people were able to manipulate accounts in the way that they 
did. I still don't feel secure in what I am hearing, how that 
could have happened. You know, we talk about the funding 
shortages for labor that I am told are in the order of 10 to 15 
million a year. And that is not insignificant but it does not 
explain the tens of millions of dollars that were moved around 
that were non-labor. In fact, material provided to the 
Committee shows that the NWS was coping with a shortage of over 
40 million in non-labor funding shortages. You know, at any 
other agency I would think funding shortfalls would lead to 
dropping some initiatives because there simply wouldn't be the 
resources to support them. But I get the impression that NWS 
did not do that and instead tried to keep everything going by 
moving money around. Why didn't NWS simply seek a reprogramming 
of funds to meet the financial needs or even ask for a 
supplemental appropriation to fully fund what is needed to be 
done?
    Dr. Sullivan. Mr. Tonko, I can't speak to what the 
intentions or motives or thought processes were of people who 
didn't bring such matters directly to me and raise them or 
through our CFO chain and raise them in a way that was open for 
discussion. Again, I think as the corporate board matters that 
we discuss in our investigative report make clear, the 
processes--budget formulation and review processes within the 
Weather Service itself clearly seem deficient to really 
grappling with those kinds of questions squarely and bringing 
forward crisp alternatives, risk-based alternatives, evidence-
based alternatives for management consideration and action.
    Mr. Tonko. Well, when you do your budget request every 
year, that goes to NOAA. Am I correct?
    Dr. Sullivan. Each line office makes a budget request----
    Mr. Tonko. Right.
    Dr. Sullivan. --that comes up and is aggregated into the 
NOAA budget, yes, sir.
    Mr. Tonko. Well, that is for the NWS. And then to the 
Department of Commerce?
    Dr. Sullivan. Correct.
    Mr. Tonko. And then finally to OMB?
    Dr. Sullivan. Correct.
    Mr. Tonko. Which would then end up with formulating the 
President's request for Congress to take action. Would there be 
any reason to believe that NWS requests for funds after they 
have gone through all these offices would be inadequate to 
fully fund all their priorities?
    Dr. Sullivan. Again, Mr. Tonko, I can't think of--both in 
my non-profit career and my corporate career and government 
career, I can't think of a time in any budget formulation 
process where each manager doesn't feel that the amount of 
money they really need to do the job they want to do the way 
they want to do it is less than is available in the total pot. 
It is commonplace everywhere. It is certainly commonplace in 
government. It is the challenge of managers at every level to 
make the best arguments, show the evidence of what they--what 
can they do, what can they delivery, what are the risks, if 
budgets don't conform to the requests that they have made, and 
one final budget allocations are made at any of those levels 
including by the Congress to adapt and adjust their operation 
to conform with that direction. It is always a challenge but it 
is a common challenge everywhere through government.
    Mr. Tonko. And when it came to the CFO, was there any 
reason to believe that anyone advised him that--or encouraged 
him that they should do this fungible thing and move the 
dollars around?
    Dr. Sullivan. The Weather Service CFO? Based on the 
materials we garnered in witness statements, I cannot recall--
which would have been hearsay or speculation as to his motives 
in any case--but I don't recall any of our witnesses opining on 
their views of his motives, and I have no personal contact with 
that individual which he made any statements to me, so I 
couldn't speculate to that.
    Mr. Tonko. Can we imagine any motivation to put one's 
career at risk or reputation or integrity on the line simply to 
balance an agency's budget? What would possess a CFO to take 
such a bold stand?
    Dr. Sullivan. It defies my imagination, Mr. Tonko, and 
further understanding the critical importance of trust to the 
mission and performance and effectiveness of the National 
Weather Service overall, it defies my imagination that someone 
would do something that might even faintly go outside of the 
law for any reason.
    Mr. Tonko. Well, the failure at the Department and then the 
ignoring of the whistleblowers by the IG and the lack of quick 
and ready response by the IG are all discouraging. And I look 
forward to additional information that will be exchanged with 
the Committee.
    I yield back, Madam Chair.
    Vice-Chairwoman Adams. Thank you. And I know that the 
Committee is looking forward to some information also I think 
that you have been asked--your agency has been asked for a 
dozen or so materials requested months ago, including the CFO 
counsel and some program oversight briefing, so hopefully, you 
can get that provided to the Committee as soon as possible.
    Dr. Sullivan. We are working on that, Ms.--Madam Chair.
    Vice-Chairwoman Adams. Hopefully, it will be done fairly 
quickly.
    Dr. Sullivan. That is my hope as well, ma'am.
    Vice-Chairwoman Adams. I would like to thank the panel for 
their valuable testimony. The witnesses are excused and we will 
move to our second panel.
    And Dr. Sullivan, if you could ask them to please get it to 
us before we come back next month would be awesome.
    Dr. Sullivan. I will pass that request----
    Vice-Chairwoman Adams. Thank you.
    Dr. Sullivan. --and add my urgings. Thank you very much.
    Vice-Chairwoman Adams. Okay. We will get started with our 
second panel. The first witness on our second panel is Dr. 
William Gail, the Chief Technology Officer of the Global 
Weather Corporation who serves on the Committee on the 
Assessment of the National Weather Service's Modernization 
Program at the National Research Council of the National 
Academies. The final witness on our second panel is Mr. Richard 
Hirn, General Counsel and Legislative Director, National 
Weather Service's Employees Organization.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which the Members of the Committee 
will have five minutes each to ask questions. Your written 
testimony will be included in the record of the hearing. It is 
the practice of the Subcommittee on Investigations and 
Oversight to receive testimony under oath. Do any of you have 
any objections to taking an oath?
    Mr. Hirn. No.
    Dr. Gail. No.
    Vice-Chairwoman Adams. Let the record reflect that all 
witnesses were willing to take an oath.
    You may also be represented by counsel. Do any of you have 
counsel here with you today?
    Mr. Hirn. No.
    Dr. Gail. No.
    Vice-Chairwoman Adams. Let the record reflect that none of 
the witnesses have counsel.
    If you would now please stand and raise your right hand.
    Do you solemnly swear or affirm to tell the truth, the 
whole truth, and nothing but the truth, so help you God?
    Ms. Hirn. Yes.
    Dr. Gail. I do.
    Vice-Chairwoman Adams. Let the record reflect that all 
witnesses participating have taken the oath.
    I now recognize our first witness, Dr. Gail, to present his 
testimony.

               TESTIMONY OF DR. WILLIAM B. GAIL,

                   CHIEF TECHNOLOGY OFFICER,

          GLOBAL WEATHER CORPORATION, COMMITTEE ON THE

          ASSESSMENT OF THE NATIONAL WEATHER SERVICE'S

    MODERNIZATION PROGRAM, NATIONAL RESEARCH COUNCIL OF THE 
                       NATIONAL ACADEMIES

    Dr. Gail. Madam Chair, Committee Members and colleagues, 
thank you for inviting me to talk to you today. My name is Bill 
Gail. I am cofounder and Chief Technology Officer of Global 
Weather Corporation, a provider of precision weather forecasts 
to businesses within the energy, media, transportation, and 
consumer sectors. We are a successful startup in today's 
economy because quality weather information is increasingly 
needed by businesses to serve customers and improve operations.
    I am speaking to you today in my role as a Member of the 
Committee that produced the report ``Weather Services for the 
Nation: Becoming Second to None,'' issued by the National 
Research Council of the National Academy of Sciences.
    The Weather Service modernization of the 1990s produced 
major improvements to our Nation's weather observing systems 
and to the Weather Service structure. It was primarily a 
response to an internal lack of modernization over several 
decades. The Committee felt the Weather Service successfully 
learned most lessons from the modernization and has since 
continued to modernize.
    Today's challenges are no less important but they are 
largely external challenges reflecting the ever-evolving user 
needs and technology context of our society. The first of these 
challenges is keeping pace with advances in science and 
technology that are taking place around the Weather Service. 
The second challenge is meeting society's expanding needs for 
better weather information. The third challenge is effectively 
partnering with and supporting the larger enterprise to achieve 
the greatest public benefit. Meeting these key challenges will 
require the Weather Service to evolve its role and how it 
operates. The goal is for it to become more agile and 
effective. Our report presents three main recommendations for 
accomplishing this.
    Our first recommendation is that the Weather Service should 
refocus on its core capabilities. These include creating 
foundational data sets, performing essential functions such as 
forecasts and warnings, and conducting operationally related 
research. All are needed for the Weather Service to perform its 
central role of protecting lives and property and for it to 
support the enterprise as a provider of additional services. In 
executing this recommendation, the Weather Service will need to 
prioritize those things only it can do and avoid replicating 
capabilities where there are viable alternatives.
    Our second recommendation is to update Weather Service 
function and structure. The current Weather Service structure 
reflects needed functions of the 1990s. Technology has changed 
much of the rationale for the present Weather Service 
organizational structure. The committee was aware that Congress 
has requested a separate external review of Weather Service 
function and structure, so we chose to limit our detailed 
recommendations in this area but noted that any such study 
requires significant technical input.
    Our third recommendation addressed the need to better 
leverage the larger enterprise providing weather services and 
systems. The relationship between the Weather Service and the 
rest of the enterprise has improved considerably since the 
modernization with praise deserved by all parties. Improved 
leveraging of the enterprise enhances the Weather Service's 
ability to serve the Nation. This is especially important at a 
time when the Weather Service seeks to enhance its services 
subject to constrained resources.
    Better weather information can save both lives and be a 
growth engine for the economy. A recent study showed the 
variability in U.S. economic output due to weather-related 
supply and demand inefficiencies is more than three percent of 
GDP. In some States, it is over ten percent. A significant 
portion of this can be recovered as economic growth through 
improved weather information. I would like to provide two 
examples from my own company's experience that illustrate the 
importance to our Nation of both the Weather Service and the 
Committee's recommendations.
    The Omaha World Herald News Group, owned by Berkshire 
Hathaway, has recently acquired nearly 100 small- and mid-sized 
newspapers. Their vision is that newspaper companies are not 
dying, but rather the best source of critical local information 
which will be delivered increasingly over web and mobile. 
Accurate weather forecasts are often the most important 
information they provide to these smaller communities.
    Xcel Energy is the off-taker utility for ten percent of 
America's wind farm capacity. Starting in 2009, Xcel privately 
funded research and development focused on improving the 
accuracy of wind forecasts. Operational use of this system 
saved $7.9 million for Xcel ratepayers in 2011 alone.
    In both examples, commercial weather companies are helping 
to implement the vision but Weather Service foundational 
information is essential to making it possible.
    In summary, meeting today's challenges will require changes 
at the Weather Service over as much as a decade. Our 
recommendations will help make the Weather Service more agile 
and effective. In a constrained resource environment, this 
approach makes possible benefits to the Nation beyond what the 
Weather Service budget alone allows.
    Thank you very much.
    [The prepared statement of Dr. Gail follows:]

    [GRAPHIC] [TIFF OMITTED] T6235.031
    
    [GRAPHIC] [TIFF OMITTED] T6235.032
    
    [GRAPHIC] [TIFF OMITTED] T6235.033
    
    [GRAPHIC] [TIFF OMITTED] T6235.034
    
    [GRAPHIC] [TIFF OMITTED] T6235.035
    
    [GRAPHIC] [TIFF OMITTED] T6235.036
    
    [GRAPHIC] [TIFF OMITTED] T6235.037
    
    [GRAPHIC] [TIFF OMITTED] T6235.038
    
    [GRAPHIC] [TIFF OMITTED] T6235.039
    
    Vice-Chairwoman Adams. Thank you.
    I now recognize our second witness for his testimony on the 
panel, Mr. Hirn, for five minutes.

                 TESTIMONY OF MR. RICHARD HIRN,

           GENERAL COUNSEL AND LEGISLATIVE DIRECTOR,

        NATIONAL WEATHER SERVICE EMPLOYEES ORGANIZATION

    Mr. Hirn. Thank you, Madam Chairman, Ranking Member Tonko. 
Thank you for inviting me to present the views of the National 
Weather Service Employees Organization and the 3,700 Weather 
Service employees we represent nationwide.
    The Weather Service budget shortfall should not have come 
as a surprise to the leadership of NOAA as it did earlier this 
year when an emergency reprogramming request was submitted. 
Although the amount and cause of the structural shortfall is an 
open question, its existence was well documented and public 
knowledge. In January 2005, the Director of the Weather Service 
delivered a PowerPoint presentation to the American 
Meteorological Society that showed a cumulative funding gap 
that began in fiscal year 2001 and that had grown to $37 
million. In February 2005, the Weather Service Budget Director 
also told the Washington Post that the Agency had a cumulative 
shortfall of 37 million that stemmed from chronic underfunding.
    In April 2006, DOC had to submit a reprogramming request to 
add 13 million to the local warnings and forecast baseline to 
``sustain operations and avoid a nationwide hiring freeze.'' By 
2008, the Weather Service had increased its lapsed labor rate 
to nearly five percent in order to mitigate the shortfall. In 
other words, the Weather Service intentionally delayed filling 
vacancies so that five percent of all Weather Service positions 
were vacant at any given time.
    On December 3, 2008, I and other NWSEO representatives met 
with a NOAA transition team for the incoming administration. 
Both team members with whom we met would later be appointed to 
senior leadership positions in NOAA. We presented them with 
some of the documents on the shortfall that we had been 
previously provided by Weather Service, including a spreadsheet 
showing that the Weather Service anticipated an annual 
shortfall of $30 million through fiscal year 2013. Thus, the 
incoming administration was clearly told of the substantial 
financial problem left them by the outgoing administration.
    In a recent appearance before the Commerce, Justice, and 
Science Appropriations Subcommittee, the Under Secretary 
testified that the Weather Service is not operating with 
insufficient funds. This assertion is refuted by nearly a 
decade's worth of evidence to the contrary.
    Now, over the years, the Weather Service has erroneously 
attributed the structural shortfall to growing labor costs, 
which they say has outstripped increases in agency 
appropriations. But between 2002 and 2012, the salary rates of 
most Weather Service employees rose 27 percent. However, during 
the same ten-year period, the amount appropriated for the local 
warnings and forecast base line item, the line item for which 
90 percent of all employees' salaries are paid, rose by 31 
percent and overall funding for NWS operations rose by 34 
percent. In other words, the general salary rates which have 
not grown faster than funding for NWS operations and employment 
levels of the Weather Service have been essentially flat since 
2005 authorized at slightly over 4,600 employees.
    Now, also in her recent testimony to the House 
Appropriations Committee, the Under Secretary stated that the 
Weather Service needs to evolve into ``the most efficient and 
cost-effective manner in face of changing budgets.'' This year, 
the Administration proposed to eliminate 122 personnel at local 
forecast offices as a first step, a proposal that was soundly 
rejected in a bipartisan fashion by both the House and the 
Senate Appropriations Committee and by the full House, all of 
whom restored funding for these critical positions. Staffing 
reductions are simply not an option for mitigating the Weather 
Service structural shortfall. The 122 forecast offices operate 
24/7, and most of the time, there are just two forecasters on 
duty who have responsibility for protecting the lives of nearly 
three million people on average.
    Last year's National Research Council's retrospective 
assessment of the Weather Service modernization recognized that 
forecast offices are staffed only for fair weather and that 
staffing is at preciously low levels during severe weather. 
Staffing levels are continuing to remain at dangerously low 
levels because the Weather Service and the NOAA Workforce 
Management Office now delay filling vacant operational and 
emergency essential positions for six months or more leaving 
offices critically understaffed.
    Finally, it is important to note that although the number 
of federal employees have grown over the past decade, 
employment levels at the Weather Service have remained 
stagnant. In fact, there are approximately 15 percent fewer 
Weather Service employees and only half as many offices as 
there was 20 years ago.
    Thank you.
    [The prepared statement of Mr. Hirn follows:]

    [GRAPHIC] [TIFF OMITTED] T6235.040
    
    [GRAPHIC] [TIFF OMITTED] T6235.041
    
    [GRAPHIC] [TIFF OMITTED] T6235.042
    
    [GRAPHIC] [TIFF OMITTED] T6235.043
    
    [GRAPHIC] [TIFF OMITTED] T6235.044
    
    [GRAPHIC] [TIFF OMITTED] T6235.045
    
    [GRAPHIC] [TIFF OMITTED] T6235.046
    
    [GRAPHIC] [TIFF OMITTED] T6235.047
    
    [GRAPHIC] [TIFF OMITTED] T6235.048
    
    Vice-Chairwoman Adams. We thank the panel for their 
testimony.
    Reminding Members that committee rules limit questioning to 
five minutes, the Chair will at this point open the round of 
questions. The Chair recognizes herself for five minutes.
    Mr. Hirn, the term ``structural deficit'' has been used in 
different ways depending on the perspective of the speaker. Can 
you please explain what a structural deficit is from the 
perspective of the union? Is this deficit a result of 
insufficient planning, for yearly wage increases, for salary?
    Mr. Hirn. We don't think it can be primarily attributed to 
insufficient salary planning because, as I have noted, the 
salary levels have gone--the salary rate--general schedule 
salary rates have gone up certainly no more than the Weather 
Service appropriations. And when we say structural deficit, we 
are just using the terminology that the Weather Service 
management through this previous administration and several 
Weather Service Directors and CFOs previous have used, laid out 
in all their charts and spreadsheets, which we have provided 
the Committee, listing what programs and what essential 
operational things are not being funded, what maintenance is 
being delayed, what procurements are not taking place. It has 
been pretty much laid out by the Weather Service. This is not 
our terminology. And those details have been provided to the 
Committee in hard copy.
    Vice-Chairwoman Adams. Thank you.
    Mr. Gail, will the Weather Service continue to be second to 
none if it does not continue to support investments in science 
and technology?
    Dr. Gail. It is essential that these investments are 
supported, absolutely.
    Vice-Chairwoman Adams. And to both of you, a large portion 
of the Weather Service's budget is devoted to labor. Mr. Hirn's 
testimony indicates that forecasting centers are already 
running on skeleton crews. The Academy's recent reports say 
that as scientific and technological progress continues, 
critical components within NWS are lagging behind the state of 
the science. Understanding current budget realities, what 
advice would you provide Congress on how to address this 
predicament? Mr. Hirn and then Mr. Gail--Dr. Gail.
    Mr. Hirn. Well, one of the--well, what we have worked--we 
supported what Congress did last year and that is called for an 
outside study of the Weather Service structure, its operations, 
and its needs for the future. We have worked with the National 
Research Council this year and the previous year on their 
study. We think that it has to be a nationwide dialogue to 
first establish what job the Weather Service is going to be 
doing, what new capabilities it can engage in in the future 
before a long-range plan can be set, but at a very minimum, the 
structural deficit may be in the realm of $30 million, there 
needs to be an adjustment in the fiscal year 2014 budget, if 
not in the 2013 budget.
    Vice-Chairwoman Adams. Dr. Gail?
    Dr. Gail. Yeah, we agreed that there are efficiencies that 
can be gained within the Weather Service in terms of better 
utilization of technology. Technology is evolving rapidly, and 
those can be used to improve the quality of the forecast. At 
the same time, we said that the human element of the forecast 
is essential, and as technology evolves, humans can play 
different roles in performing those forecasts, focusing on 
those areas where they contribute most, focusing on use of 
automation in areas where automation can be used best.
    In addition, we said that the Weather Service has the 
ability working with the broader enterprise to create leverage 
in terms of value that is generated for the Nation using the 
private sector, using other entities that work with the Weather 
Service closely and can perform roles in providing benefits to 
both businesses and the public in terms of enhancing what the 
core weather service capabilities are. But it does come back to 
making sure that those are protected.
    Vice-Chairwoman Adams. Thank you.
    And Mr. Hirn, what was the reaction from NWS, NOAA, and/or 
DOC leadership to your efforts to inform them about the 
structural deficit and to your recommendations on how best to 
address it?
    Mr. Hirn. I can only say that it was ignored. Had the 
incoming administration relied on our advice or had at least 
taken us seriously with the information we provided them, this 
whole reprogramming problem--unauthorized reprogramming problem 
that we have had over the past two years would never have 
happened because the problem would have been fixed two or three 
years ago had they gone back and--the new administration in 
their budget request to Congress had fixed the structural 
shortfall. And we have every confidence that Congress would 
have approved it because we--anything that the Weather Service 
has asked for basically has been approved by--has gotten 
bipartisan support from Congress.
    Vice-Chairwoman Adams. Thank you. I yield back my--the rest 
of my time.
    And I now recognize Mr. Tonko.
    Mr. Tonko. Thank you, Madam Chair.
    Some people may think the weather can just be grabbed off 
the television or forecasts are churned out by computers. So 
Mr. Hirn, can you clarify for the Members of the Committee the 
role of forecasters and the work over at NWS?
    Mr. Hirn. Wow, that is a big job but I will just give--as 
capsule job--as capsule summary as I can say. Basically, twice 
a day, based on weather data gathered by weather balloons, 
satellites, observation centers, there are computer models--a 
number of computer models with what is called synoptic 
forecasts that are produced here in Maryland at the National 
Center for Environmental Prediction, goes out to the forecast 
offices--122 forecast offices nationwide. Those modeled 
forecasts are pretty large scope and need to be tweaked, 
changed, adapted to the local communities based on the 
knowledge and expertise of the local forecasters who put out 
several times a day marine, aviation, public, all kinds of 
forecasts that we rely upon directly to the public, to the 
press, to the private companies rely upon.
    And as they are doing that, as they are watching the 
weather, adopting these models, tailoring them to the local 
needs, they are also keeping the eye on the weather for 
developing severe weather. And then when severe weather 
develops, while they are doing these forecasts, they also--and 
they often have to call in extra staff because no two people 
can do this on their own--get on the radar, get the reports and 
issue the warnings and watches of tornadoes, severe 
thunderstorms, blizzards, flash flooding that we see in the 
media. So they are doing two things at one time. They are 
adopting the model forecast for--to specify for the local 
communities and they are also keeping an eye on the weather and 
then teaming up to--when necessary to issue warnings of severe 
weather.
    Mr. Tonko. Thank you. The National Academies highlight the 
role of technology in empowering the NWS to do even better work 
than they do now. So Dr. Gail, do you see embracing new 
technology as a labor-saving exercise or is it that technology 
and labor levels don't necessarily connect in terms of a 
savings or is it just getting even better work out of the 
process? Is there a labor impact from the investment of 
technology in your mind?
    Dr. Gail. Well, the human work that is done now is a 
combination of highly skilled things and more routine things. 
And as with any industry, automation can step in and support on 
the more routine aspects of things that are done and free up 
that human labor to be applied where it is most needed in the 
judgment area, in the areas where you are trying to discern 
things that may not have been seen before, a particular set of 
conditions that seem somewhat unique. And yet the ability to 
create a forecast based on that knowledge is still critical to 
public safety. And so better applying the human judgment, the 
human capabilities where they can do the most good I think is 
where technology will be able to help most.
    Mr. Tonko. So it is freeing up some of the labor to do the 
more judgmental or interpretive outcomes?
    Dr. Gail. Well, I think one of the things that is important 
to realize is that this is not a static situation. The demand 
for these kinds of things is increasing rapidly, both on the 
business side that I see within my company and on the public 
safety side as we see in terms of vulnerability to severe 
weather and things like that. So there is a demand that is--
certainly will not be met in the future unless we really 
progress rapidly both in terms of our scientific and technology 
capability but also in terms of applying the human resources 
appropriately.
    Mr. Tonko. Um-hum. And Mr. Hirn, in 45 seconds can you 
offer any observations there?
    Mr. Hirn. Well, yes. To answer that, there is an increasing 
demand for the Weather Service to engage in what is called 
decision support services to have our forecasters work with 
directly face-to-face local emergency management personnel 
during severe weather events. We now have forecasters go out to 
the--all out West to all the wild land fires and do forecasts 
on the spot, face-to-face with the firefighting crews to the 
extent that better computer models and technology can free up 
time so that our folks can be more involved in these decision 
support services to the emergency management communities, we 
really are looking forward to that.
    And in fact, it was at our request and our design that the 
Weather Service has now started several pilot programs around 
the country by adding an emergency response meteorologist to 
forecast offices whose primary job is more social science and 
interrelation with emergency managers to bring the product out, 
to make sure people are aware of the product, the help the 
local communities and the emergency managers make better 
decisions based on the weather information. The union has been 
the one that designed those programs, convinced the Agency that 
they were needed, and we jointly designed and are experimenting 
with that in several places around the country.
    Mr. Tonko. I can tell you, having been impacted in our 
district--Congressional District with severe storms over the 
last year, I can tell you the communities and the individuals 
that I represent could strongly endorse that kind of 
connection.
    Thank you so much.
    Vice-Chairwoman Adams. I would like to thank the witnesses 
for their valuable testimony and the Members for their 
questions. The Members of the Subcommittee may have additional 
questions for witnesses and we will ask for you to respond to 
those in writing.
    The record will remain open for two weeks for additional 
comments from Members. The witnesses are excused and the 
hearing is now adjourned.
    [Whereupon, at 4:55 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Dr. Kathryn D. Sullivan

[GRAPHIC] [TIFF OMITTED] T6235.081

[GRAPHIC] [TIFF OMITTED] T6235.082

[GRAPHIC] [TIFF OMITTED] T6235.083

[GRAPHIC] [TIFF OMITTED] T6235.084

Responses by Ms. Maureen Wylie

[GRAPHIC] [TIFF OMITTED] T6235.076

[GRAPHIC] [TIFF OMITTED] T6235.077

[GRAPHIC] [TIFF OMITTED] T6235.078

[GRAPHIC] [TIFF OMITTED] T6235.079

[GRAPHIC] [TIFF OMITTED] T6235.080

Responses by Inspector General Todd J. Zinser

[GRAPHIC] [TIFF OMITTED] T6235.050

[GRAPHIC] [TIFF OMITTED] T6235.051

[GRAPHIC] [TIFF OMITTED] T6235.052

[GRAPHIC] [TIFF OMITTED] T6235.053

[GRAPHIC] [TIFF OMITTED] T6235.054

[GRAPHIC] [TIFF OMITTED] T6235.055

[GRAPHIC] [TIFF OMITTED] T6235.056

[GRAPHIC] [TIFF OMITTED] T6235.057

[GRAPHIC] [TIFF OMITTED] T6235.058

Responses by Dr. William B. Gail

[GRAPHIC] [TIFF OMITTED] T6235.086

[GRAPHIC] [TIFF OMITTED] T6235.087

Responses by Mr. Richard Hirn

[GRAPHIC] [TIFF OMITTED] T6235.088

[GRAPHIC] [TIFF OMITTED] T6235.089

[GRAPHIC] [TIFF OMITTED] T6235.090

[GRAPHIC] [TIFF OMITTED] T6235.091

[GRAPHIC] [TIFF OMITTED] T6235.092

[GRAPHIC] [TIFF OMITTED] T6235.093

[GRAPHIC] [TIFF OMITTED] T6235.094

[GRAPHIC] [TIFF OMITTED] T6235.095

[GRAPHIC] [TIFF OMITTED] T6235.096

[GRAPHIC] [TIFF OMITTED] T6235.097

[GRAPHIC] [TIFF OMITTED] T6235.098

[GRAPHIC] [TIFF OMITTED] T6235.099

[GRAPHIC] [TIFF OMITTED] T6235.100

                              Appendix II

                              ----------                              


                   Additional Material for the Record



  Department of Commerce Acting Secretary, Ms. Rebecca Blank, May 24, 
          2012 memorandum submitted by Dr. Kathryn D. Sullivan

[GRAPHIC] [TIFF OMITTED] T6235.101

[GRAPHIC] [TIFF OMITTED] T6235.102

[GRAPHIC] [TIFF OMITTED] T6235.103

[GRAPHIC] [TIFF OMITTED] T6235.104

[GRAPHIC] [TIFF OMITTED] T6235.105

[GRAPHIC] [TIFF OMITTED] T6235.106

[GRAPHIC] [TIFF OMITTED] T6235.107

[GRAPHIC] [TIFF OMITTED] T6235.108

[GRAPHIC] [TIFF OMITTED] T6235.109

[GRAPHIC] [TIFF OMITTED] T6235.110

[GRAPHIC] [TIFF OMITTED] T6235.111

[GRAPHIC] [TIFF OMITTED] T6235.112

 Under Secretary of Commerce for Oceans and Atmosphere, Dr. Lubchenco, 
      May 24, 2012 memorandum submitted by Dr. Kathryn D. Sullivan

[GRAPHIC] [TIFF OMITTED] T6235.113

[GRAPHIC] [TIFF OMITTED] T6235.114

[GRAPHIC] [TIFF OMITTED] T6235.115

[GRAPHIC] [TIFF OMITTED] T6235.116

[GRAPHIC] [TIFF OMITTED] T6235.117

[GRAPHIC] [TIFF OMITTED] T6235.118

   Joint NOAA DOC investigative report's Executive Summary (redacted)

[GRAPHIC] [TIFF OMITTED] T6235.119

[GRAPHIC] [TIFF OMITTED] T6235.120

[GRAPHIC] [TIFF OMITTED] T6235.121

[GRAPHIC] [TIFF OMITTED] T6235.122

[GRAPHIC] [TIFF OMITTED] T6235.123

[GRAPHIC] [TIFF OMITTED] T6235.124

[GRAPHIC] [TIFF OMITTED] T6235.125

[GRAPHIC] [TIFF OMITTED] T6235.126

[GRAPHIC] [TIFF OMITTED] T6235.127

[GRAPHIC] [TIFF OMITTED] T6235.128

[GRAPHIC] [TIFF OMITTED] T6235.129

[GRAPHIC] [TIFF OMITTED] T6235.130

[GRAPHIC] [TIFF OMITTED] T6235.131

[GRAPHIC] [TIFF OMITTED] T6235.132

[GRAPHIC] [TIFF OMITTED] T6235.133

[GRAPHIC] [TIFF OMITTED] T6235.134

[GRAPHIC] [TIFF OMITTED] T6235.135

[GRAPHIC] [TIFF OMITTED] T6235.136

[GRAPHIC] [TIFF OMITTED] T6235.137

[GRAPHIC] [TIFF OMITTED] T6235.138

[GRAPHIC] [TIFF OMITTED] T6235.139

[GRAPHIC] [TIFF OMITTED] T6235.140

[GRAPHIC] [TIFF OMITTED] T6235.141

[GRAPHIC] [TIFF OMITTED] T6235.142

[GRAPHIC] [TIFF OMITTED] T6235.143

[GRAPHIC] [TIFF OMITTED] T6235.144

[GRAPHIC] [TIFF OMITTED] T6235.145

[GRAPHIC] [TIFF OMITTED] T6235.146

[GRAPHIC] [TIFF OMITTED] T6235.147

[GRAPHIC] [TIFF OMITTED] T6235.148

[GRAPHIC] [TIFF OMITTED] T6235.149

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
